No. 20-361

In the Supreme Court of the United States
JAMES COURTNEY AND CLIFFORD COURTNEY,
PETITIONERS,
V.

DAVID DANNER, IN HIS OFFICIAL CAPACITY AS CHAIRMAN
AND COMMISSIONER OF THE WASHINGTON UTILITIES &
TRANSPORTATION COMMISSION, ET AL.,

CERTIFICATE OF
SERVICE

RESPONDENTS.

I hereby certify that:
1.

On December 4, 2020, the Respondents’ Brief In Opposition was served

as follows:
2.

Per the Court’s April 15, 2020, Order and the parties’ agreement,

service on Counsel of Record will be provided via the Court’s ECF system, to include
Counsel listed on the attached service list.
3.

All parties required to be served have been served.

4.

I am a member of the Bar of the Supreme Court of the United States.

DATED this 4th day of December 2020.
s/ Noah G. Purcell
NOAH G. PURCELL
Solicitor General
Counsel of Record
1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200

SERVICE LIST
COUNSEL FOR PETITIONERS:

Michael Eugene Bindas
Institute for Justice
600 University Street Suite 1730
Seattle, WA 98101

206-957-1300
mbindas@ij.org

